Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MEDICARE’S PROGRAM 

  SAFEGUARD CONTRACTORS: 

  PERFORMANCE EVALUATION 

         REPORTS





                    Daniel R. Levinson

                    Inspector General 


                       March 2006

                     OEI-03-04-00050

                 Office of Inspector General

                                   http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and
operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS
beneficiaries and of unjust enrichment by providers. The investigative efforts of OI
lead to criminal convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
Δ   E X E C U T I V E                   S U M M A R Y                                 



                  OBJECTIVES
                  To determine (1) the extent and type of information provided in
                  performance evaluation reports about program safeguard contractors’
                  (PSC) results related to detecting and deterring fraud and abuse, and
                  (2) whether the performance evaluation reports are issued on time.


                  BACKGROUND
                  The Health Insurance Portability and Accountability Act of 1996 (Public
                  Law 104-191), section 202 authorized the Centers for Medicare &
                  Medicaid Services (CMS) to contract with entities to fulfill program
                  integrity functions for the Medicare program and required a competitive
                  process for awarding contracts. CMS entered into the first contract
                  under this authority in 1999. Entities awarded such contracts are
                  called PSCs. Once under contract, PSCs are then awarded task orders
                  to carry out specific duties.

                  There are two major types of PSC task orders: one for full service
                  benefit integrity work and another for specific projects. A benefit
                  integrity task order includes the full range of fraud and abuse detection
                  and deterrence work (hereinafter fraud and abuse work or activities)
                  previously performed by specific carriers and/or fiscal intermediaries.
                  As of July 2003, CMS completed the transfer of all fraud and abuse
                  work from carriers and fiscal intermediaries to PSCs, with the exception
                  of fraud and abuse work performed by three regional medical equipment
                  carriers. CMS expects the transition of fraud and abuse work from the
                  three medical equipment carriers to be completed by March 1, 2006.

                  This report focuses on benefit integrity task orders. From
                  November 1999 to November 2004, CMS allocated $261.4 million for a
                  total of 17 benefit integrity task orders. These task orders were
                  awarded to seven PSCs, and each of these task orders has been
                  renewed from one to four times.

                  Since the first benefit integrity task order was awarded, CMS has
                  used four different methods of evaluating PSC performance.

                  We requested from CMS its most current performance evaluation report
                  for each of the 17 benefit integrity task orders. We reviewed these
                  evaluation reports to determine whether they contained information
                  about PSC achievements in relation to nine standard activities PSCs
                  perform to detect and deter fraud and abuse. The nine activities are


OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   i
E X E C U T I V E              S U     M M A R Y


                   described in three guiding documents for PSCs: the benefit integrity
                   task order, the “PSC Umbrella Statement of Work,” and the “Medicare
                   Program Integrity Manual.” We determined whether these nine
                   activities were addressed in the evaluation reports in terms of “results”
                   or “process and procedures.” The nine activities are:

                       1. Fraud Case Development

                       2. National/Regional Data Analysis

                       3. Law Enforcement Support

                       4. Medical Review to Support Fraud and Abuse Cases

                       5. Civil Monetary Penalties and Other Administrative Actions

                       6. Submit Proposed Fraud Alerts

                       7. Fraud Prevention/Detection Education

                       8. Fraud Complaint Processing

                       9. Incentive Reward Program

                   We also requested data from CMS to determine the timeliness of the
                   evaluation process for the period November 1999 to November 2004.


                   FINDINGS
                   Performance evaluation reports provided limited quantitative data
                   about program safeguard contractors’ achievements at detecting and
                   deterring fraud and abuse. Of the 17 performance evaluation reports we
                   reviewed, several did not contain results, quantitative or qualitative, for
                   1 or more of the 9 fraud and abuse activities. Eight performance
                   evaluation reports did not address results regarding Medical Review to
                   Support Fraud and Abuse Cases. In addition, nine reports did not
                   address results regarding Fraud Complaint Processing, and nine reports
                   did not address results regarding Fraud Prevention/Detection Education.

                   The majority of results-oriented comments did not address outcomes of
                   fraud and abuse work, but instead were standardized phrases addressing
                   the quality of the work (e.g., “case files appear complete, timely, and
                   appropriate”).

                   Fifteen of 118 results-oriented comments (13 percent) were quantitative.
                   These 15 comments were spread across 8 of the 17 evaluation reports we
                   reviewed. Thus, evaluation reports provided limited quantitative data
                   measuring PSC efforts or achievements related to detecting and deterring


 OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   ii
E X E C U T I V E              S U     M M A R Y


                   fraud and abuse. For example, only one evaluation report contained the
                   number of open and pending proactive fraud cases, only one contained the
                   amount of money saved as a result of PSC initiatives, and only one
                   included the number of requests for support received from law
                   enforcement agencies. Almost half of the quantitative comments
                   regarding PSC performance (6 of 15) were negative.

                   Sixteen of seventeen reports did not contain information on all required
                   fraud and abuse detection and deterrence activities. Only 1 of 17
                   evaluation reports contained information on all of the standard fraud
                   and abuse activities required by the associated task order. The
                   remaining 16 evaluation reports did not contain any information on 2 to
                   7 required activities. Two activities, Submit Proposed Fraud Alerts and
                   Incentive Reward Program, were not addressed in any evaluation report
                   for task orders requiring these activities.

                   Seventy-two percent of evaluation reports were issued on time. Since
                   the first benefit integrity task order was awarded in 1999, 72 percent of
                   all final evaluation reports (23 of 32) met the reporting timeframes set
                   forth in the then governing “PSC Umbrella Statement of Work.”
                   Twenty-eight percent of the final reports (9 of 32) did not. The “PSC
                   Umbrella Statement of Work” that governed these 32 final reports
                   required that final performance evaluation reports would be issued
                   2 months after the task order performance period ends. Of the nine
                   final reports that were issued late, seven were from 20 days to 6 months
                   late, one was almost 19 months late, and one was 38 months late.

                   Only 5 of 32 final reports were issued 3 months before the task order
                   ended. It is at this point in time—3 months before the performance
                   period ends—that CMS is required to notify the PSC whether CMS
                   intends to renew the contract. CMS issued revisions to the “PSC
                   Umbrella Statement of Work” in 2004. The revisions state that CMS’s
                   final evaluation reports of PSC performance will be issued 3 months
                   before the task order performance period ends.
                   The unavailability of milestone dates for the production of evaluation
                   reports prevented us from identifying where delays occurred in the
                   evaluation process. Once evaluation reports are finalized, the online
                   evaluation system used by CMS deletes the dates of earlier milestones,
                   such as issuance dates of draft reports. Based on data CMS provided, it
                   appears that CMS does not have a systematic means to track evaluation
                   events other than this online system. Thus CMS is limited in its ability
                   to retrospectively determine where delays occurred.

 OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   iii
E X E C U T I V E              S U     M M A R Y 




                   RECOMMENDATIONS
                   The primary responsibility for detecting and deterring fraud and abuse
                   in the Medicare program was transferred from carriers and fiscal
                   intermediaries to PSCs. To determine how well PSCs are performing,
                   CMS utilizes the contractor performance evaluation as an important
                   tool.

                   However, performance evaluation reports contained minimal
                   information about PSC efforts to detect and deter fraud and abuse.
                   Because these reports are limited in their description of the results
                   PSCs may be achieving, they provide limited information on which to
                   base task order renewal decisions.

                   To improve the evaluation process, we recommend that CMS:
                   Address program safeguard contractor results in their performance
                   evaluation reports. CMS should describe PSC results in identifying
                   and preventing fraud and abuse in the evaluation reports to
                   demonstrate the adequacy of PSC performance. Using quantitative as
                   well as qualitative data to describe results would provide a more
                   comprehensive picture of PSC performance and provide valuable data
                   for making renewal decisions. If, for example, certain PSC activities are
                   saving money for the Medicare program, the activity and the amount of
                   money saved should be included in the performance evaluation reports.
                   Provide information about required program safeguard contractor
                   activities in performance evaluation reports. The activities CMS
                   specifically lists in the benefit integrity task orders and that PSCs are
                   required to perform should be evaluated in the performance evaluation
                   reports. The primary responsibility of PSCs is to detect and deter fraud
                   and abuse; therefore, the performance evaluation reports should include
                   information on whether fraud and abuse detection and deterrence
                   activities were performed and how effectively they were performed.
                   Take steps to ensure that all draft and final performance evaluation
                   reports are issued in accordance with the current timetable. CMS
                   should aim to issue 100 percent of the performance evaluation
                   reports on time. Moreover, by following the timetable in the current
                   revised “PSC Umbrella Statement of Work,” evaluation reports
                   would be available for CMS when the task order renewal notice is
                   due. This would allow CMS to make more informed decisions when
                   renewing a task order with a contractor.



 OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   iv
E X E C U T I V E              S U     M M A R Y


                   Establish a means to track and save evaluation milestone dates.
                   The online system CMS uses for PSC evaluations only holds
                   evaluation milestone dates temporarily. A system that tracks and
                   saves all milestone dates would help CMS identify where delays
                   occur so that improvements can be made to the performance
                   evaluation process.




                   AGENCY COMMENTS
                   CMS concurred with Office of Inspector General (OIG)
                   recommendations to: (1) ensure that all draft and final performance
                   evaluation reports are issued in accordance with the current timetable;
                   and (2) establish a means to track and save evaluation milestone dates.

                   CMS concurred only in part with the OIG recommendation to address
                   results in PSC performance evaluation reports. CMS believes that
                   quantifying PSC output could create perverse incentives and undermine
                   the value of a PSC’s work. CMS stated that it has been cautioned by
                   prosecutors that cases could be jeopardized if the entity assessing the
                   facts of the investigation were rewarded for sheer volume of case
                   referrals or required to meet a quota of case referrals. CMS, therefore,
                   looks to the timeliness of PSC performance, the thoroughness of PSC
                   work, and PSC responsiveness to law enforcement agencies to
                   determine PSC effectiveness in fraud fighting. However, CMS stated
                   that the current OIG study underscored the benefits that could be
                   gained by capturing units of work that PSCs perform. CMS stated that
                   it has already begun moving forward on the OIG recommendation by
                   improving the means by which it gathers information about the outcome
                   of PSC activities and will collect an array of quantitative and
                   qualitative measurements.

                   CMS concurred in part with OIG’s recommendation to provide
                   information about required PSC activities in performance evaluation
                   reports. CMS stated that every aspect of PSC performance should be
                   scrupulously reviewed and evaluated. However, it stated that resources
                   limit the level and intensity of scrutiny that can reasonably be applied
                   to PSCs and it will focus performance evaluations on the primary PSC
                   activities. Furthermore, CMS will reevaluate the listing of activities
                   required in the PSC Statement of Work in order to emphasize the most
                   crucial activities.



 OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   v
E X E C U T I V E              S U     M M A R Y 




                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   OIG is pleased that our review helped underscore the benefits that
                   could be gained by a more complete review of PSC performance, and we
                   appreciate that CMS is already moving forward on our
                   recommendations. While OIG understands CMS’s concerns about
                   creating perverse incentives, we are not advocating that a system of
                   numeric quotas be implemented. Rather, OIG is recommending that
                   evaluation reports include the level of activity and results that PSCs
                   have achieved in combating fraud in the Medicare program. OIG
                   continues to believe that these types of measures are necessary to
                   accurately assess the effectiveness of the PSC’s fraud-fighting efforts.
                   CMS commented that resources sometimes limit the level and intensity
                   of scrutiny CMS can give to all PSC activities. While this is
                   understandable, OIG believes that activities listed in PSC task orders
                   should be addressed in performance evaluation reports.

                   OIG looks forward to working with CMS in its continuing efforts to
                   improve the PSC review process.




 OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   vi
Δ   T A B L E           O F             C O N T E N T S                                  




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1



         FINDINGS ....................................................... 8

                    Reports provided few results regarding fraud and abuse 

                    detection and deterrence activities. . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                    Most reports did not contain information on all fraud 

                    and abuse detection and deterrence activities . . . . . . . . . . . . . . . . . 9 


                    Not all reports were issued on time . . . . . . . . . . . . . . . . . . . . . . . . 10 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                    Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 14 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                    Appendix A: Related Office of Inspector General Reports . . . . . . 15 


                    Appendix B: Performance Evaluation Reports Reviewed. . . . . . . 16 


                    Appendix C: Evaluation Comments Addressing Results . . . . . . . 17 


                    Appendix D: Evaluation Comments Addressing Process and

                                Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                    Appendix E: Task Order Performance Period Versus 

                                Evaluation Period, 1999—2004 . . . . . . . . . . . . . . . . 21 


                    Appendix F: 	Fraud and Abuse Detection/Deterrence 

                                 Activities Addressed in Evaluation Reports . . . . . . 23 


                    Appendix G: 	Timeliness of Performance Evaluation Reports,

                                 1999—2004 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    Appendix H: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 26 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

Δ   I N T R O D U C T I O N                            



                  OBJECTIVES
                  To determine (1) the extent and type of information provided in
                  performance evaluation reports about program safeguard contractors’
                  (PSC) results related to detecting and deterring fraud and abuse, and
                  (2) whether the performance evaluation reports are issued on time.


                  BACKGROUND
                  The first PSC was established in 1999. As of November 2004, the
                  Centers for Medicare & Medicaid Services (CMS) had allocated
                  $261.4 million for a total of 17 benefit integrity task orders. These task
                  orders were awarded to seven PSCs. To date, the Office of Inspector
                  General (OIG) has not reviewed the performance of PSCs in general nor
                  PSC performance of benefit integrity task orders in particular. In this
                  report, we focus on PSC performance evaluation reports of benefit
                  integrity task orders.
                  Establishment of Program Safeguard Contractors
                  The Health Insurance Portability and Accountability Act of 1996 (Public
                  Law 104-191), section 202, authorized CMS to contract with entities to
                  fulfill program integrity functions for the Medicare program and
                  required a competitive process for awarding contracts. CMS entered
                  into the first contract under this authority in 1999. Entities awarded
                  such contracts are called PSCs. Once under an umbrella contract, PSCs
                  are then awarded task orders to carry out specific duties.
                  Task Orders and Transfer of Fraud and Abuse Detection/Deterrence Work
                  There are two major types of PSC task orders: one for full service
                  benefit integrity work and another for specific projects.1 A benefit
                  integrity task order includes the full range of fraud and abuse detection
                  and deterrence work (hereinafter fraud and abuse work or activities)
                  previously performed by specific carriers and/or fiscal intermediaries.
                  As of July 2003, CMS had completed the transfer of all fraud and abuse
                  work from carriers and fiscal intermediaries to PSCs, with the exception
                  of fraud and abuse work performed by three regional medical equipment
                  carriers. CMS expects the transition of fraud and abuse work from the
                  three medical equipment carriers to be completed by March 1, 2006.

                  1 An example of a specific project is “generate program safeguard edits.” There are also

                   specialty PSC task orders, which address specialized work such as the Comprehensive
                   Error Rate Testing Program.



OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:    P E R F O R M A N C E E VA L U AT I O N R E P O R T S   1
I N T R O D        U C T     I O N


                    In addition to the work transferred from carriers and fiscal
                    intermediaries, benefit integrity task orders may also include the
                    requirement to match Medicare and Medicaid data to identify potential
                    fraud and abuse.

                    Benefit integrity task orders are renewable, and as of November 2004,
                    each of these task orders had been renewed from one to four times.
                    Documents Outlining Program Safeguard Activities
                    Three documents govern PSC operations and describe various fraud and
                    abuse activities required of PSCs. These documents are the individual
                    benefit integrity task orders, the “PSC Umbrella Statement of Work,”
                    and the “Medicare Program Integrity Manual.”
                    Purpose of Performance Evaluation
                    The Federal Acquisition Regulation establishes policies for all
                    competitively bid Federal contracts including program safeguard
                    contracts. Pursuant to 48 CFR 42.1502(a), CMS is required to evaluate
                    PSC performance.

                    Moreover, the “PSC Umbrella Statement of Work” states that CMS
                    conducts performance evaluations of PSCs to assess the contractor’s
                    overall performance, determine whether to renew the task orders,
                    and/or determine whether to renew the umbrella contract.

                    According to CMS staff, in the absence of a final report, the decision to
                    renew a task order can be made when the performance evaluation
                    report is in draft form because at that point there is no additional
                    information to be gathered.
                    Evaluation Methods
                    Since November 1999, when the first benefit integrity task order was
                    awarded to a PSC, CMS has used four methods of evaluating PSC
                    performance.

                    For the first performance evaluation method, CMS utilized a
                    Government task leader to evaluate the task order performance period
                    based on their oversight of the PSC and the PSC’s periodic deliverables.
                    A Government task leader is a CMS employee responsible for overseeing
                    the implementation of the task order once it is awarded.

                    The second method of evaluating PSC performance utilized a team
                    approach whereby CMS Government task leaders and subject matter
                    experts (e.g., a benefit integrity, medical review) conducted the



 OEI-03-04-00050    MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   2
I N T R O D        U C T     I O N


                    evaluation using a review and rating instrument called the Balanced
                    Scorecard.

                    With the third evaluation method, used in 2004, CMS had outside
                    auditors conducting the performance evaluations using an auditing tool
                    known as “Statement on Auditing Standards (SAS) No. 70,” or SAS 70.
                    The auditors reported their findings to CMS. Then CMS staff used a
                    review and rating tool called the “Record of Evaluation” to combine the
                    SAS 70 findings with additional findings of CMS staff based on their
                    oversight of PSCs.

                    In 2005, CMS used a fourth performance evaluation method and had
                    CMS staff from central office and regional offices conducting these
                    evaluations. According to a CMS representative, the 2005 evaluation
                    protocol was designed to review and measure PSC effectiveness,
                    efficiency, outcomes, and innovation.
                    National Institutes of Health Contractor Performance System
                    Regardless of the evaluation method used to assess PCS performance,
                    CMS has always used the online National Institutes of Health (NIH)
                    Contractor Performance System to report out PSC evaluation findings.
                    The NIH Contractor Performance System is used by various Federal
                    agencies for evaluating contractors. PSC evaluation data are entered into
                    the system by CMS staff in the Program Integrity Group and the Office of
                    Acquisitions and Grants Management (formerly Acquisitions and Grants
                    Group). PSCs may enter comments on the draft evaluation report in the
                    Contractor Comments section of the system.
                    Related Office of Inspector General Reports
                    OIG has long been concerned about contractor performance related to
                    the detection and deterrence of fraud and abuse in the Medicare
                    program. Our previous studies have found that medical equipment
                    carriers did not provide data needed to determine the effectiveness of
                    their fraud units; that some fiscal intermediary fraud units produced
                    few, if any, significant results; and that few carrier fraud units were
                    successful in meeting all outcome criteria. Brief summaries of our
                    reports on contractor performance are provided in Appendix A.
                    Government Accountability Office Report
                    In May 2001, Government Accountability Office (GAO) issued a report,
                    “Medicare: Opportunities and Challenges in Contracting for Program
                    Safeguards (GAO-01-616),” in response to a congressional request. GAO
                    was asked to (1) describe CMS’s progress in implementing its PSC
                    contracting authority and (2) assess whether CMS could improve its

 OEI-03-04-00050    MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   3
I N T R O D        U C T     I O N


                    management of PSCs to ensure their most effective use. GAO found
                    that CMS lacked a long term strategy for incorporating PSCs into the
                    Medicare program. In addition, CMS had “not established clear,
                    measurable performance criteria to assess the PSCs’ performance on
                    individual task orders.”


                    METHODOLOGY
                    We spoke with CMS central office staff about the establishment of PSCs
                    and the performance evaluation process for benefit integrity task
                    orders. CMS provided us with the original “PSC Umbrella Statement of
                    Work” (effective May 1999) and its two revisions (effective March 2004
                    and May 2004). They also provided the April 2004 revision of the
                    “Medicare Program Integrity Manual,” which became effective for all
                    PSCs in July 2004, and copies of benefit integrity task orders.
                    Evaluation Reports Collected
                    To determine how evaluation reports address fraud and abuse activities,
                    we collected the most current evaluation reports from CMS’s central
                    office, as of November 5, 2004, for each benefit integrity task order.
                    These 17 reports are the official reports in the NIH Contractor
                    Performance System. A list of these reports is provided in Appendix B.
                    Analysis of Evaluation Reports
                    Identifying a Standard Set of Fraud and Abuse Activities. We looked for a
                    standard set of fraud and abuse activities, i.e., activities that were
                    common to current benefit integrity task orders and that would also be
                    relevant for future benefit integrity task orders. We reviewed all
                    benefit integrity task orders, all versions of the “PSC Umbrella
                    Statement of Work,” and the “Medicare Program Integrity Manual.”

                    A table of 9 activities PSCs should perform to detect and deter fraud
                    and abuse was included in 12 of 17 benefit integrity task orders. These
                    nine activities became our analysis criteria. They are:

                      1. Fraud Case Development

                      2. National/Regional Data Analysis

                      3. Law Enforcement Support
                      4. Medical Review to Support Fraud and Abuse Cases

                      5. Civil Monetary Penalties and Other Administrative Actions

                      6. Submit Proposed Fraud Alerts


 OEI-03-04-00050    MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   4
I N T R O D        U C T     I O N


                      7. Fraud Prevention/Detection Education

                      8. Fraud Complaint Processing

                      9. Incentive Reward Program

                    The five task orders that did not contain a table of these nine activities
                    did, however, require most of them. The task orders either referred to
                    the activity in the text or referenced the “PSC Umbrella Statement of
                    Work,” which required the activity. These five task orders did not
                    mention the Incentive Reward Program, but this activity is described as
                    a PSC responsibility in revisions of the “PSC Umbrella Statement of
                    Work” and in the “Medicare Program Integrity Manual.” We
                    determined that a task order did not require an activity if the task order
                    explicitly stated it was not required, or if the activity was not addressed
                    as a PSC activity in both the task order and applicable version of the
                    “PSC Umbrella Statement of Work.”

                    Prior to conducting this study, we presented CMS our rationale for
                    using this set of activities as analysis criteria. CMS explained that
                    while the table of nine activities lists “Civil Monetary Penalties,” PSCs
                    are responsible for “Civil Monetary Penalties and Other Administrative
                    Actions.” Based on this, when we identified three task orders that
                    excluded responsibility for civil monetary penalties but required other
                    administrative actions, we counted these task orders as requiring the
                    activity, “Civil Monetary Penalties and Other Administrative Actions.”
                    Analyzing Text in Evaluation Reports. We categorized text in the
                    evaluation reports to quantify and describe the types of comments that
                    addressed the nine fraud and abuse activities. The evaluation reports
                    that addressed activities did so in the following ways: positive,
                    negative, brief mention, extensive comments, results information,
                    and/or process and procedures information. We did not categorize text
                    that was unrelated to the fraud and abuse activities.

                    In accordance with the analysis plan we shared with CMS, we assigned
                    evaluation report comments to two categories, and further divided the
                    first category as follows:

                              1. Results

                                       a. Qualitative comments

                                       b. Quantitative comments

                              2. Process and procedures


 OEI-03-04-00050    MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   5
I N T R O D        U C T     I O N


                    By results, we mean accomplishments in detecting and deterring fraud
                    and abuse. By qualitative comment, we mean the comment consisted of
                    words only, e.g., “PSC’s data analysis resulted in case referrals to law
                    enforcement.” By quantitative comment, we mean the comment
                    included numeric information, e.g., “Of the 12 cases referred to law
                    enforcement, 7 were opened via proactive data analysis.” The table in
                    Appendix C shows the types of comments that we counted as results in
                    the 17 evaluation reports we reviewed. These 17 reports contained from
                    0 to 16 results comments, for a total of 119 results comments.

                    By process and procedures, we mean the day-to-day operations, tools,
                    and methods of conducting fraud and abuse detection and deterrence
                    work. The table in Appendix D shows the types of comments that we
                    counted as process and procedures in the 17 evaluation reports we
                    reviewed. These 17 reports contained from 0 to 15 comments related to
                    process and procedures, for a total of 94 process and procedures
                    comments.
                    Limitation of Evaluation Report Analysis. We did not request information
                    from CMS that would (1) corroborate information in the performance
                    evaluation reports, or (2) provide additional information about PSC
                    achievements.
                    Task Order and Evaluation Report Data Collected
                    We also requested data from CMS’s central office that would enable us
                    to determine:
                    o 	 the funds allocated to benefit integrity task orders,

                    o 	 the number of task orders renewed,

                    o 	 the number of task order performance periods that were
                        evaluated,
                    o 	 the evaluation method used for each task order,

                    o 	 the timeliness of the evaluation reports, and

                    o 	 where delays in the evaluation process occurred (if any).

                    The data we reviewed covered the period November 22, 1999, (start date
                    of the oldest benefit integrity task order awarded to a PSC) to
                    November 5, 2004. This time period included renewals for the 17 task
                    orders, resulting in a total of 44 task order performance periods.

                    While we asked CMS to clarify and verify some of the data they
                    provided, we did not perform an independent validation of all the data.


 OEI-03-04-00050    MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   6
I N T R O D        U C T     I O N


                    “Task order performance period” or simply “performance period” are the
                    terms we use to represent a discrete task order performance period. A
                    task order may have more than one performance period depending on
                    how many times it was renewed.

                    “Evaluation period” is the term we use to represent the time period of
                    PSC performance that was evaluated by CMS. Evaluation periods
                    rarely match performance periods, as shown in the table, “Task Order
                    Performance Period Versus Evaluation Period,” in Appendix E. One
                    reason for this is that CMS must provide the PSC advance notice of the
                    Government’s intention to renew or not renew the task order.
                    Therefore, the evaluation is performed far enough in advance of the end
                    of the performance period. In some cases, an evaluation may cover all
                    or part of the previous performance period and part of the current
                    performance period. In one unusual case, an 18-month performance
                    period was divided into three evaluation periods.
                    Basis of Timeliness Calculation for Evaluation Reports
                    “PSC Umbrella Statement of Work.” Of the 40 report-issuance dates CMS
                    provided, 32 were for final reports and 8 were for draft reports. To
                    determine whether reports were issued on time, we calculated the
                    difference between the report issue dates and the deadlines set forth in
                    the applicable “PSC Umbrella Statement of Work.” Of the 40 report-
                    issuance dates CMS provided, 39 were for task orders under the original
                    “PSC Umbrella Statement of Work,” and 1 was for a task order under
                    the May 2004 revision.
                    Three-Month Renewal Notice. As a secondary measure of report
                    timeliness, we determined whether reports were issued by the time the
                    renewal notice was due. CMS is required to notify the PSC 3 months
                    before the end of the performance period as to whether CMS intends to
                    renew the task order. We performed this calculation for the 32 final
                    report dates and 8 draft report dates we received from CMS.
                    Inspection Standards
                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency and the Executive Council on Integrity and
                    Efficiency.




 OEI-03-04-00050    MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   7
Δ      F I N D I N G S 


                                                            Of the 17 evaluation reports we
      Performance evaluation reports provided               reviewed, several did not contain
        limited quantitative data about program             results, quantitative or
safeguard contractors’ achievements related to              qualitative, for 1 or more of the 9
       detecting and deterring fraud and abuse              fraud and abuse activities. Eight
                                                            performance evaluation reports
                                                            did not address results regarding
                     Medical Review to Support Fraud and Abuse Cases. In addition, nine
                     reports did not address results regarding Fraud Complaint Processing,
                     and nine reports did not address results regarding Fraud
                     Prevention/Detection Education.

                     The majority of results-oriented comments (62 of 119) did not address
                     outcomes of fraud and abuse work, but instead were standardized
                     phrases addressing the quality of the work (e.g., “case files appear
                     complete, timely, and appropriate”).

                     Fifteen of 119 results-oriented comments (12 percent) were quantitative.
                     These 15 quantitative comments were spread across 8 evaluation reports.
                     Thus, the evaluation reports provided limited quantitative data
                     measuring PSC efforts or achievements related to detecting and deterring
                     fraud and abuse. For example, only one evaluation report mentioned
                     the number of open and pending proactive fraud cases, only one
                     mentioned the amount of money saved as a result of PSC initiatives and
                     the matching of Medicare and Medicaid data, and only one mentioned
                     the number of requests received from law enforcement agencies.

                     Almost half of the quantitative comments regarding PSC performance
                     (6 of 15) were negative. Five of six negative comments pointed out a
                     lack of detection and deterrence activity, such as no PSC-initiated
                     referrals to law enforcement in a jurisdiction that has a history of fraud
                     and abuse. The remaining comment described failures to respond to
                     law enforcement requests for support in a timely manner.

                     Table 1 identifies the number of evaluation reports that addressed PSC
                     results quantitatively for each standard fraud and abuse activity.




   OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   8
F   I N D I N G        S      





                   Table 1: Evaluation Reports Addressing Results Quantitatively
                   Fraud and Abuse Detection and                       Number of Evaluation Reports with
                   Deterrence Activity                                  Quantitative Results Per Activity1
                   Fraud Case Development                                                              3
                   Civil Monetary Penalties and Other
                                                                                                       2
                   Administrative Actions
                   Law Enforcement Support                                                             2
                   Fraud Prevention/Detection Education                                                1
                   National/Regional Data Analysis                                                     1
                   Fraud Complaint Processing                                                          1
                   Medical Review to Support Fraud and
                                                                                                       0
                   Abuse Cases
                   Submit Proposed Fraud Alerts                                                        0
                   Incentive Reward Program                                                            0
                   1
                    The quantitative results were in eight reports. The numbers in this column are not mutually
                   exclusive.

                   Source: OIG analysis of comments in evaluation reports of benefit integrity task orders, 2005.




        Sixteen of seventeen reports did not contain             Only one evaluation report
         information on all required fraud and abuse             contained information on
                                                                 all of the standard fraud
                  detection and deterrence activities
                                                                 and abuse activities
                  required by the associated task order. The remaining 16 evaluation
                  reports did not contain any information on 2 to 7 required activities.
                  These 16 reports had neither results nor process and procedure
                  information for these activities. Two activities, Submit Proposed Fraud
                  Alerts and Incentive Reward Program, were not addressed in any
                  evaluation report for task orders requiring these activities. Six of
                  seventeen evaluation reports did not address Fraud Complaint
                  Processing, and 7 of 15 evaluation reports did not address Medical
                  Review to Support Fraud and Abuse Cases. The activity that was
                  addressed in most evaluation reports was National/Regional Data
                  Analysis (16 of 17), followed by Fraud Case Development (15 of 17).

                  Based on our review of all 17 benefit integrity task orders, we found
                  that they require PSCs to perform from 7 to 9 of the 9 standard fraud
                  and abuse activities. Table 2 shows the number of standard fraud and
                  abuse activities required by each task order and the number of these
                  activities addressed in each evaluation report.




OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:            P E R F O R M A N C E E VA L U AT I O N R E P O R T S   9
                     N G


                            For a list of the specifc fraud and abuse activities required in each task
                            order and addressed in each evaluation report that we reviewed , see
                            Appendix F.


                            Table 2: Fraud and Abuse DetectionlDeterrence Activities Addressed in
                                         Evaluation Reports
                              Task Order                    Number of                              Number of
                                Identifier              Activities Required                   Activities Evaluated




                            This evaluation covered only 2 weeks that the PSC was fully operational and 5 months that the PSC
                            was in transition.

                           Source: OIG analysis of comments in evaluation report of benefi integrity task orders. 2005.



Seventy-two percent of evaluation report                                  were          Since the first benefit integrity
                                                                                        task order was awarded in
                                                       issued on          time
                                                                                        1999 , 72 percent of all final
                           evaluation reports (23 of 32) have been issued on time. Twenty- eight
                           percent (9 of 32) were issued late. The " PSC Umbrella Statement of
                           Work" that governed these 32 final reports stated that final
                           performance evaluation reports would be issued 2 months    after the end
                           of the task order performance period. Of the nine final reports that
                           were issued late , seven were from 20 days to 6 months late , one was
                           almost 19 months late , and one was 38 months late. Appendix G
                           contains information on the timeliness of each evaluation report for
                           which CMS provided issue dates. It also lists the benefit integrity task


OEI. 03. 04. 00050         MEDICARE S PROGRAM SAFEGUARD CONTRACTORS: PERFORMANCE EVALUATION REPORTS
F   I N D I N G        S


                      order performance periods for which the report issue dates were not
                      available.

                      While almost three-quarters of evaluation reports were issued on time,
                      only 5 of these 32 reports were issued at least 3 months before the task
                      order performance period ended. It is at this time—3 months before the
                      performance period ends—that CMS is required to notify the PSC
                      whether CMS intends to renew the contract.

                      CMS staff members stated that they can use draft evaluation reports to
                      make task order renewal decisions. However, CMS was only able to
                      provide us with draft report dates for eight draft reports. Of these eight
                      draft reports, two were issued at least 3 months before the end of the
                      task order performance period.

                      CMS issued revisions to the “PSC Umbrella Statement of Work” in
                      2004. The revisions state that CMS’s final evaluation reports of PSC
                      performance will be issued 3 months before the task order performance
                      period ends. This new time schedule for issuing final reports coincides
                      with the time schedule for sending a renewal notice to the PSC.
                      The unavailability of milestone dates in the evaluation process prevented
                      us from identifying where reporting delays occur

                      Few performance evaluation milestone dates, other than most final
                      report dates, were available from CMS. Once evaluation reports are
                      finalized, the online evaluation system used by CMS deletes the dates of
                      earlier events. Examples of earlier events include the issuance of draft
                      reports to PSCs and the receipt of comments on draft reports from
                      PSCs. Based on data CMS provided, it appears CMS does not have a
                      systematic means to track evaluation events other than the online
                      system. Thus, CMS is limited in its ability to retrospectively determine
                      where delays in the evaluation report process occur.




    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   11
Δ   R E C O M M E N D A T I O N S                                         




                  The primary responsibility for detecting and deterring fraud and abuse
                  in the Medicare program was transferred from carriers and fiscal
                  intermediaries to PSCs. To determine how well PSCs are performing,
                  CMS utilizes the contractor performance evaluation as an important
                  tool.

                  However, performance evaluation reports contained minimal
                  information about PSC efforts to detect and deter fraud and abuse.
                  Because these reports are limited in their description of the results
                  PSCs may be achieving, they provide limited information on which to
                  base task order renewal decisions.

                  To improve the evaluation process, we recommend that CMS:
                  Address program safeguard contractor results in their performance
                  evaluation reports. CMS should describe PSC results in identifying
                  and preventing fraud and abuse in the evaluation reports to
                  demonstrate the adequacy of PSC performance. Using quantitative as
                  well as qualitative data to describe results would provide a more
                  comprehensive picture of PSC performance and provide valuable data
                  for making renewal decisions. If, for example, certain PSC activities are
                  saving money for the Medicare program, the activity and the amount of
                  money saved should be included in the performance evaluation reports.
                  Provide information about required program safeguard contractor
                  activities in performance evaluation reports. The activities CMS
                  specifically lists in the benefit integrity task orders and that PSCs are
                  required to perform should be evaluated in the performance evaluation
                  reports. The primary responsibility of PSCs is to detect and deter fraud
                  and abuse; therefore, the performance evaluation reports should include
                  information on whether fraud and abuse detection and deterrence
                  activities were performed and how effectively they were performed.
                  Take steps to ensure that all draft and final performance evaluation
                  reports are issued in accordance with the current timetable. CMS
                  should aim to issue 100 percent of the performance evaluation
                  reports on time. Moreover, by following the timetable in the current
                  revised “PSC Umbrella Statement of Work,” evaluation reports
                  would be available for CMS when the task order renewal notice is
                  due. This would allow CMS to make more informed decisions when
                  renewing a task order with a contractor.



OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   12
R   E C O        M M E N D A T           I O N      S


                      Establish a means to track and save evaluation milestone dates.
                      The online system CMS uses for PSC evaluations only holds
                      evaluation milestone dates temporarily. A system that tracks and
                      saves all milestone dates would help CMS identify where delays
                      occur so that improvements can be made to the performance
                      evaluation process.




                      AGENCY COMMENTS
                      CMS concurred with OIG recommendations to: (1) ensure that all draft
                      and final performance evaluation reports are issued in accordance with
                      the current timetable; and (2) establish a means to track and save
                      evaluation milestone dates.

                      CMS concurred only in part with the OIG recommendation to address
                      results in PSC performance evaluation reports. CMS believes that
                      quantifying PSC output could create perverse incentives and undermine
                      the value of a PSC’s work. CMS stated that it has been cautioned by
                      prosecutors that cases could be jeopardized if the entity assessing the
                      facts of the investigation were rewarded for sheer volume of case
                      referrals or required to meet a quota of case referrals. CMS, therefore,
                      looks to the timeliness of PSC performance, the thoroughness of PSC
                      work, and PSC responsiveness to law enforcement agencies to
                      determine PSC effectiveness in fraud fighting. However, CMS stated
                      that the current OIG study underscored the benefits that could be
                      gained by capturing units of work that PSCs perform. CMS stated that
                      it has already begun moving forward on the OIG recommendation by
                      improving the means by which it gathers information about the outcome
                      of PSC activities and will collect an array of quantitative and
                      qualitative measurements.

                      CMS concurred in part with OIG’s recommendation to provide
                      information about required PSC activities in performance evaluation
                      reports. CMS stated that every aspect of PSC performance should be
                      scrupulously reviewed and evaluated. However, it stated that resources
                      limit the level and intensity of scrutiny that can reasonably be applied
                      to PSCs and it will focus performance evaluations on the primary PSC
                      activities. Furthermore, CMS will reevaluate the listing of activities
                      required in the PSC Statement of Work in order to emphasize the most
                      crucial activities. The full text of CMS’s comments are in Appendix H.



    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   13
R   E C O        M M E N D A T           I O N      S      




                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      OIG is pleased that our review helped underscore the benefits that
                      could be gained by a more complete review of PSC performance, and we
                      appreciate that CMS is already moving forward on our
                      recommendations. While OIG understands CMS’s concerns about
                      creating perverse incentives, we are not advocating that a system of
                      numeric quotas be implemented. Rather, OIG is recommending that
                      evaluation reports include the level of activity and results that PSCs
                      have achieved in combating fraud in the Medicare program. OIG
                      continues to believe that these types of measures are necessary to
                      accurately assess the effectiveness of the PSC’s fraud-fighting efforts.
                      CMS commented that resources sometimes limit the level and intensity
                      of scrutiny CMS can give to all PSC activities. While this is
                      understandable, OIG believes that activities listed in PSC task orders
                      should be addressed in performance evaluation reports.

                      OIG looks forward to working with CMS in its continuing efforts to
                      improve the PSC review process.




    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   14
Δ   A P P E N D I X                 ~      A       


                  Related Office of Inspector General Reports


                  The following is a brief description of OIG reports about contractors
                  responsible for detecting and deterring fraud and abuse in the Medicare
                  program:
                  February 2000, “Durable Medical Equipment Regional Carriers: Meeting
                  HCFA’s Objectives” (OEI-04-97-00330). We found that durable medical
                  equipment regional carriers (DMERC) were addressing fraud in
                  individual cases, but a lack of information precluded us from
                  determining the overall effectiveness of their fraud units. DMERCs did
                  not provide needed data to document the quality and results of their
                  efforts.
                  November 1998, “Fiscal Intermediary Fraud Units” (OEI-03-97-00350). We
                  found that fiscal intermediary fraud units differed substantially in the
                  number of complaints and cases handled. Some units produced few, if
                  any, significant results.
                  November 1996, “Carrier Fraud Units” (OEI-05-94-00470). We compared
                  carrier performance in five outcome areas: accuracy of complaint
                  disposition; case documentation; assessing financial damage; internal
                  proactive safeguards; and external proactive safeguards. We found that
                  few carriers were successful in meeting all outcome criteria.
                  August 1995, “Monitoring Medicare Contractor Performance: A New Approach”
                  (OEI-01-93-00160). We found that the new monitoring approach
                  (instituted in 1994), which used qualitative assessment, gathered useful
                  information. In addition, the use of teams from outside the local
                  regional office to conduct the reviews enhanced the reviews. We also
                  found that CMS had not yet made full use of information gathered in
                  the reviews to further contractors’ ability to safeguard Medicare
                  payments.
                  August 1988, “Medicare Carriers’ Performance of Program Integrity Functions”
                  (OAI-04-88-00710). We found that certain CMS policies and/or
                  procedures regarding program integrity were outdated, that allocation
                  of carrier resources away from traditional program integrity processes
                  was a concern, that carriers were properly accounting for costs and
                  savings for program integrity functions, and that improvements were
                  needed in OIG systems for providing feedback on status and disposition
                  of fraud cases referred by the carriers.



OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   15
    Δ              A P P E N D I X                             ~        B

This table contains the 17 performance evaluation reports we reviewed. The information in this
table appears in descending order by final report issue date.

Performance Evaluation Reports Reviewed (n=17)
                                                                                           Additional
                                    Task Order                                            Allocation for
        Task Order                 Performance                      Funds                  Medi-Medi                                Final Report
         Identifier                   Period                       Allocated                 Project1                               Issue Date2
               J                 11/01/03 - 10/31/04               $4,408,499                                                            11/05/04

              E                  01/01/04 - 12/31/04               $5,386,795                $2,170,312                                  10/21/04

              A                  01/01/04 -12/31/04                $6,892,628                                                            10/20/04

               L                 03/05/04 - 10/31/04               $1,278,635                $1,067,232                                  10/15/04

              B                  01/01/04 - 12/31/04               $2,960,903                $1,090,280                                  10/15/04

              C                  01/01/04 - 12/31/04               $2,092,031                                                            10/15/04

              K                  12/01/03 - 11/30/04               $7,643,157                                                            10/15/04

              F                  01/01/04 - 12/31/04               $4,707,594                                                            10/14/04

              H                  12/01/03 - 11/30/04               $8,238,693                                                            10/13/04

              P                  01/01/04 - 06/30/04               $2,557,795                                                            09/18/04

              M                  11/01/03 - 10/31/04               $6,812,554                $1,182,466                                  09/16/04

              D                  11/01/03 - 10/31/04               $3,705,267                $1,251,969                                  09/16/04

               I                 11/01/03 - 10/31/04               $9,766,300                $1,250,000                                  09/08/04

              O                  11/07/02 - 11/30/03               $6,083,042                                                            01/26/04

              Q                  08/01/02 - 11/30/03               $7,733,315                $1,244,435                                  10/29/03

              G                  06/01/02 - 12/31/03               $11,751,340               $1,244,435                                  06/10/03

              N                  08/03/01 - 08/02/02               $6,192,838                                                            10/30/02

Totals                                                          $98,211,386                 $10,501,129
1
    Medi-Medi is a project that matches Medicare and Medicaid data, and it is required of certain PSCs.
2
    These were the most current final reports as of November 5, 2004.


Source: Centers for Medicare & Medicaid Services, Program Integrity Group and Office of Acquisitions and Grants Management.




           OEI-03-04-00050             MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:             P E R F O R M A N C E E VA L U AT I O N R E P O R T S   16
This table shows the types of comments that we counted as "results " in the 17 performance
evaluation reports we reviewed. Comments could be positive or negative and are organized
under the nine standard fraud and abuse detection and deterrence activities. The check marks
indicate whether the comments in the reports we reviewed were qualitative or quantitative.



                                                               QUALITATIVE                  QUANTITATIVE

 1. FRAUD CASE DEVELOPMENT




                                     roduction
 2. NATIONAUREGIONAL DATA ANALYSIS




 3. LAW ENFORCEMENT SUPPORT




 4. MEDICAL REVIEW TO SUPPORT FRAUD AND ABUSE CASES
 Medical review determinations -   ualit
 Medical review determinations - timeliness
 5. CIVIL MONETARY PENALTIES AND OTHER ADMINISTRATIVE ACTIONS



                                                 enalties




 6. SUBMIT PROPOSED FRAUD ALERTS




        OEI. 03. 04. 00050     MEDICARE S PROGRAM SAFEGUARD CONTRACTORS: PERFORMANCE EVALUATION REPORTS
Evaluation Comments Addressing Results

7.   FRAUD PREVENTION/DETECTION EDUCATION
Affliated contractor education
eMS education
Law enforcement education
Provider education
PSC education
Training
8.   FRAUD COMPLAINT PROCESSING
Complaint acknowledoments
Complaint processino - Qualitv
Complaint processinQ - timeliness
Complaint referrals
Reduction of pending beneficiary complaints
Reduction of pending complaints (source of complaints not
specified)
9. INCENTIVE REWARD PROGRAM
No comments on this activity in any report we reviewed

Source: Offce of Inspector General analysis of comments in evaluation reports of benefit integrity task orders. 2005.




        OEI. 03. 04. 00050          MEDICARE S PROGRAM SAFEGUARD CONTRACTORS: PERFORMANCE EVALUATION REPORTS
                                         I X


This table shows the types of comments that we counted as "process and procedures" in the
17 performance evaluation reports we reviewed. Comments could be positive or negative and
are organized under the nine standard fraud and abuse detection and deterrence activities-

 Evaluation Comments Addressing Process and Procedures
 1.   FRAUD CASE DEVELOPMENT
 Case documentation
 Case audit trail
 Case Drocedures
 Case referral packages to law enforcement aQencies
 Case trackinQ system
 Cost control
 Cost report
 Feedback from law enforcement reoardino cases
 Fraud Investioation Database - cases unassioned
 Fraud Inyestioation Database - uDdates (oualitv and timeliness)
 Fraud Investioation Database - traininG
 Followino UP referrals timelv
 Interaction with eMS reaardino cases
 Interaction with law enforcement recrdinocases
 Performance problem
Qualitv control

2.    NATIONAUREGIONAL DATA ANALYSIS
Analysis methods
Analysis tools
Data obtained. uploaded. maintained
Development of data matchino methodoloov for Medicare- Medicaid proiect
Interaction with affliated contractor reoardino data analysis
Manaoement performance reoardino data analysis
Performance problem
SUQQestions for PSC Analysis . Reportino, and Trackino System
3.    LAW ENFORCEMENT SUPPORT
Audit trail of law enforcement reouests for SUDDort
Cost control
Cost report
Feedback from law enforcement
Interaction with eMS reQardino law enforcement support
Interaction with law enforcement reaardinosuDDort reQuests
Procedures for respondino to supp ort reQuests
4.    MEDICAL REVIEW TO SUPPORT FRAUD AND ABUSE CASES
Follows ouidelines/reoulations reoardino medical review
Interaction with affilated contractor reoardino medical review
5.    CIVIL MONETARY PENALTIES AND OTHER ADMINISTRATIVE ACTIONS
Coordination with affliated contractor reaardino administrative action
Coordination with eMS reoardino administrative action
Procedures reQardino administrative action
6.    SUBMIT PROPOSED FRAUD ALERTS
No comments on this activitv in any report we reviewed
7.    FRAUD PREVENTION/DETECTION EDUCATION
No comments on this activitv in anv reDort we reviewed




        OEI- 03. 04. 00050    MEDICARE S PROGRAM SAFEGUARD CONTRACTORS: PERFORMANCE EVALUATION REPORTS
Evaluation Comments Addressing Process and Procedures
8. FRAUD COMPLAINT PROCESSING
Complaint audit trail
Complaint procedures
Complaint trackino system
Cost control
Interaction with affliated contractor reQardinQ     complaints
Interaction with eMS regarding complaints
9. INCENTIVE REWARD PROGRAM
No comments on this activity in any report we reviewed

Source: Offce of Inspector General analysis of comments in evaluation reports of benefit integrity task orders. 2005.




     OEI. 03- 04- 00050          MEDICARE S PROGRAM SAFEGUARD CONTRACTORS: PERFORMANCE EVALUATION REPORTS
    Δ          A P P E N D I X                               ~         E

This table contains all task order performance periods for the period 1999-2004. The
information appears in ascending order by performance period end date. It compares the task
order performance period with the evaluation period. The 17 performance evaluation reports we
reviewed are associated with task order identifiers A – Q.
Task Order Performance Period Versus Evaluation Period, 1999-2004



    Task Order Identifier                        Performance Period                                             Evaluation Period
                R                                  11/22/99 - 11/21/00                                            11/24/99 - 11/23/00

                S                                  07/14/00 - 07/13/01                                            07/14/00 - 07/13/01
                                                                                                                                             1
                T                                  11/07/00 - 11/06/01                                               Not Applicable

                U                                  11/22/00 - 11/21/01                                                 No Evaluation

                V                                  07/14/01 - 07/13/02                                            07/14/01 - 03/31/02

                N                                  08/03/01 - 08/02/02                                            08/03/01 - 06/24/02

                W                                  11/07/01 - 11/06/02                                            11/07/00 - 07/16/02

                X                                  11/22/01 - 11/21/02                                            11/01/01 - 05/30/02

                Y                                  12/21/01 - 12/20/02                                            12/21/01 - 09/23/02

                Z                                  07/14/02 - 10/31/03                                            01/01/02 - 12/31/02

               AA                                  10/17/02 - 10/31/03                                            10/17/02 - 03/31/03
                                                                                                                                             1
               BB                                  04/01/03 - 10/31/03                                               Not Applicable

               CC                                  09/27/02 - 10/31/03                                            09/27/02 - 03/31/03

               DD                                  08/01/02 - 11/30/03                                            08/01/02 - 01/31/03

                O                                  11/07/02 - 11/30/03                                            07/17/02 - 04/30/03

                Q                                  08/01/02 - 11/30/03                                            08/01/02 - 02/01/03
                     2
               EE                                  05/16/02 - 11/30/03                                             5/15/02 - 12/16/02
                     2
               EE                                  05/16/02 - 11/30/03                                            12/17/02 - 02/28/03
                     2
               EE                                  05/16/02 - 11/30/03                                            03/01/03 - 11/17/03

               FF                                  12/21/02 - 12/31/03                                            09/24/02 - 06/30/03

               GG                                   6/25/02 - 12/31/03                                             6/25/02 - 12/31/02

               HH                                  12/20/02 - 12/31/03                                            12/20/02 - 05/31/03

                II                                 11/22/02 - 12/31/03                                            05/31/02 - 05/31/03

                JJ                                 05/16/02 - 12/31/03                                            05/16/02 - 10/31/02
                                                                                                                                             1
               KK                                  12/20/02 - 12/31/03                                               Not Applicable

                G                                  06/01/02 - 12/31/03                                            06/01/02 - 01/15/03
1
  This task order performance period was evaluated with a subsequent performance period.
2
  This task order had three evaluations conducted during the performance period. Consequently, this table has 46 lines of data for 44 individual task
  order performance periods.



         OEI-03-04-00050             MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:              P E R F O R M A N C E E VA L U AT I O N R E P O R T S   21
A P P E N D                 I X         ~       E        


Task Order Performance Period Versus Evaluation Period, 1999-2004



  Task Order Identifier                       Performance Period                                          Evaluation Period
              LL                                08/03/02 - 01/09/04                                         02/01/02 - 01/31/03

              MM                                03/05/03 - 03/04/04                                         03/05/03 - 12/31/03

               P                                01/01/04 - 06/30/04                                         07/01/03 - 01/31/04

               L                                03/05/04 - 10/31/04                                         01/01/04 - 06/30/04
               I                                11/01/03 - 10/31/04                                         01/01/03 - 04/30/04

               M                                11/01/03 - 10/31/04                                         04/01/03 - 04/30/04

               D                                11/01/03 - 10/31/04                                         04/01/03 - 04/30/04

               J                                11/01/03 - 10/31/04                                         04/01/03 - 04/30/04

               K                                12/01/03 - 11/30/04                                         02/01/03 - 05/31/04

              NN                                12/01/03 - 11/30/04                                         05/01/03 - 05/31/04

              OO                                12/01/03 - 11/30/04                                         02/02/03 - 05/31/04

               H                                12/01/03 - 11/30/04                                         11/18/03 - 05/31/04

              PP                                07/01/04 - 12/31/04                                         02/01/04 - 06/30/04

               B                                01/01/04 - 12/31/04                                         01/01/03 - 06/30/04

               C                                01/01/04 - 12/31/04                                         06/01/03 - 06/30/04

              QQ                                01/10/04 - 12/31/04                                         02/01/03 - 06/30/04

               A                                01/01/04 -12/31/04                                          06/01/03 - 06/30/04

               E                                01/01/04 - 12/31/04                                           11/1/02 - 6/30/04

               F                                01/01/04 - 12/31/04                                         03/15/03 - 06/30/04

              RR                                01/01/04 - 12/31/04                                         01/16/03 - 06/30/04

Source: Centers for Medicare & Medicaid, Program Integrity Group and Office of Acquisitions and Grants Management.




        OEI-03-04-00050            MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:          P E R F O R M A N C E E VA L U AT I O N R E P O R T S   22
     Δ              A P P E N D I X                                                                                                                                                                        ~                                      F                             




This table quantifies the specific fraud and abuse activities required in benefit integrity task
orders and addressed in the 17 performance evaluation reports we reviewed.

Fraud and Abuse Detection/Deterrence Activities Addressed in Evaluation Reports

                                                                                                              Civil Monetary Penalties and Other



                                                                                                                                                                                Medical Review to Support Fraud
                         National/Regional Data Analysis




                                                                                                                                                                                                                   Submit Proposed Fraud Alerts
                                                                                                                                                   Fraud Complaint Processing



                                                                                                                                                                                Fraud Prevention/Detection




                                                                                                                                                                                                                                                   Incentive Reward Program
                                                                                    Law Enforcement Support
                                                           Fraud Case Development




                                                                                                              Administrative Actions



                                                                                                                                                                                and Abuse Cases

                                                                                                                                                                                Education



                                                                                                                                                                                                                                                                                Number of       Number of        Percentage of
                                                                                                                                                                                                                                                                                Activities       Activities        Activities
     Task Order                                                                                                                                                                                                                                                               Required Under   Addressed in      Addressed in
                                                                                                                                                                                                                                                                                           2
      Identifier                                                                                                                                                                                                                                                               Task Order    Evaluation Report Evaluation Report

           A            T                                  T                            T                            T                             T                               T               T              N/A N/A                                                           7                           7                                100%
           B            T                                  T                            T                            T                             T                               T               T                                                                                9                           7                                78%
           C            T                                  T                            T                            T                             T                               T               T                                                                                9                           7                                78%
           D            T                                  T                            T                            T                             T                               T               T                                                                                9                           7                                78%
           E            T                                  T                            T                            T                             T                                               T                                                                                9                           6                                67%
           F            T                                  T                            T                            T                             T                               T                                                                                                9                           6                                67%
           G            T                                  T                            T                            T                             T                               T                                                                                                9                           6                                67%
           H            T                                  T                            T                            T                             T                               T                                                                                                9                           6                                67%
            I           T                                  T                            T                            T                                                                             T                                              N/A                               8                           5                                63%
           J            T                                  T                            T                            T                             T                                                                                                                                9                           5                                56%
           K            T                                  T                            T                                                          T                                                                                                                                9                           4                                44%
           L            T                                  T                            T                            T                                                                                                                                                              9                           4                                44%
           M            T                                  T                            T                            T                                                                                                                                                              9                           4                                44%
           N            T                                  T                                                                                                                    N/A                T                                              N/A                               7                           3                                43%
           O            T                                  T                                                                                                                    N/A                T                                              N/A                               7                           3                                43%
           P            T                                                               T                                                                                                                                                         N/A                               8                           2                                25%
                1
          Q                                                                                                                                        T                               T                                                                                                9                           2                                22%
        Totals          16                                 15                       14                            12                               11                              8                8             0                                0
1
    This evaluation covered only 2 weeks that the PSC was fully operational and 5 months that the PSC was in transition.
2
    We determined that a task order did not require an activity if the task order stated that it was not required, or if the activity was not addressed as
    a PSC activity anywhere in the task order and “PSC Umbrella Statement of Work.”


Source: Office of Inspector General analysis of comments in evaluation reports of benefit integrity task orders, 2005.




                OEI-03-04-00050                                                                               MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:                                                                                                                                  P E R F O R M A N C E E VA L U AT I O N R E P O R T S          23
 Δ            A P P E N D I X                    ~        G        




This table contains information on the timeliness of each performance evaluation report for
which the Centers for Medicare & Medicaid Services provided issue dates. It also lists the
benefit integrity task orders for which report issue dates were not applicable or not available.
Timeliness of Performance Evaluation Reports, 1999-2004



                Performance
Task Order       Period End     Draft Report         Timeliness1 of       Final Report                    Timeliness1 of Final
 Identifier         Date         Issue Date           Draft Report         Issue Date                           Report
     R           11/21/2000      Not Available                             03/10/2004                         38.17 months late

     Y           12/20/2002      Not Available                             09/02/2004                         18.73 months late
          3
    EE           11/30/2003      Not Available                             07/20/2004                          5.77 months late

     X           11/21/2002      Not Available                             07/02/2003                          5.43 months late

     S           07/13/2001      Not Available                             01/08/2002                          3.97 months late

     W           11/06/2002      Not Available                             02/24/2003                          1.67 months late

     N           08/02/2002      Not Available                             10/30/2002                          0.97 months late

    CC           10/31/2003      Not Available                             01/23/2004                          0.80 months late

     P           06/30/2004      Not Available                             09/18/2004                          0.67 months late

     O           11/30/2003      Not Available                             01/26/2004                         0.10 months early

     J           10/31/2004      07/01/2004          5.07 months early     11/05/2004                         1.83 months early

     L           10/31/2004      Not Available                             10/15/2004                         2.53 months early

     II          12/31/2003      Not Available                             12/04/2003                         2.90 months early

     Q           11/30/2003      Not Available                             10/29/2003                         3.07 months early

     D           10/31/2004      Not Available                             09/16/2004                         3.50 months early

     M           10/31/2004      Not Available                             09/16/2004                         3.50 months early

     K           11/30/2004      Not Available                             10/15/2004                         3.53 months early

     H           11/30/2004      Not Available                             10/13/2004                         3.60 months early

     I           10/31/2004      Not Available                             09/08/2004                         3.77 months early

    HH           12/31/2003      Not Available                             10/22/2003                         4.33 months early

     FF          12/31/2003      Not Available                             10/22/2003                         4.33 months early

     E           12/31/2004      09/09/2004          4.77 months early     10/21/2004                         4.37 months early

     A           12/31/2004      Not Available                             10/20/2004                         4.40 months early

     B           12/31/2004      Not Available                             10/15/2004                         4.57 months early

     C           12/31/2004      Not Available                             10/15/2004                         4.57 months early

     F           12/31/2004      Not Available                             10/14/2004                         4.60 months early


         OEI-03-04-00050      MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:    P E R F O R M A N C E E VA L U AT I O N R E P O R T S   24
A   P       P E N D          I X          ~        G        



Timeliness of Performance Evaluation Reports, 1999-2004



                 Performance
Task Order        Period End           Draft Report             Timeliness1 of           Final Report                     Timeliness1 of Final
 Identifier          Date               Issue Date               Draft Report             Issue Date                            Report
        AA         10/31/2003           Not Available                                      08/07/2003                         4.83 months early

        Z          10/31/2003           Not Available                                      07/29/2003                         5.13 months early

        G          12/31/2003           Not Available                                      06/10/2003                         8.80 months early

        JJ         12/31/2003           Not Available                                      05/19/2003                         9.53 months early
             3
        EE         11/30/2003           Not Available                                      04/07/2003                         9.90 months early

        GG         12/31/2003           Not Available                                      03/21/2003                        11.50 months early
                                                        2                                                      2
        T          11/06/2001          Not Applicable                                    Not Applicable

        U          11/21/2001           No Evaluation                                     No Evaluation

        V          07/13/2002           Not Available                                     Not Available
                                                        2                                                      2
        BB         10/31/2003          Not Applicable                                    Not Applicable
             3
        EE         11/30/2003            03/11/2004             2.40 months late          Not Available

        DD         11/30/2003           Not Available                                     Not Available
                                                        2                                                      2
        KK         12/31/2003          Not Applicable                                    Not Applicable

        LL         01/09/2004           Not Available                                     Not Available

        MM         03/04/2004            01/14/2004             2.67 months early         Not Available

        OO         11/30/2004            10/19/2004             2.40 months early         Not Available

        NN         11/30/2004            09/09/2004             3.73 months early         Not Available

        PP         12/31/2004            10/21/2004             2.13 months late          Not Available

        QQ         12/31/2004            10/05/2004             3.90 months early         Not Available

        RR         12/31/2004           Not Available                                     Not Available
1
  Timeliness calculation is based on timeframes set forth in the applicable “Program Safeguard Contractor Umbrella Statement of Work.”
2
  This task order performance period was evaluated with a subsequent performance period.
3
  This task order had three evaluations conducted during the performance period. Consequently, this table has 46 lines of data for 44 individual
  task order performance periods.


Source: Office of Inspector General analysis of dates that evaluation reports were issued, 2005.




         OEI-03-04-00050            MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:              P E R F O R M A N C E E VA L U AT I O N R E P O R T S   25
Δ    A P P E N D I X                 ~      H       





    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   26
A   P   P E N D       I X     ~      H      





    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   27
A   P   P E N D       I X     ~      H      





    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   28
A   P   P E N D       I X     ~      H      





    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   29
A   P   P E N D       I X     ~      H      





    OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   30
Δ   A C K N O W L E D G M E N T S                                           




                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Isabelle Buonocore, Team Leader
                  Cynthia Hansford, Program Assistant

                  Linda Frisch, Program Specialist

                  Scott Manley, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch




OEI-03-04-00050   MEDICARE’S PROGRAM SAFEGUARD CONTRACTORS:   P E R F O R M A N C E E VA L U AT I O N R E P O R T S   31
